HHS/OIG, Audit -"Review of Good Shepherd Medical Center Outpatient Rehabilitation Services,"(A-06-03-00033)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Good Shepherd Medical Center Outpatient Rehabilitation Services," (A-06-03-00033)
July 21, 2003
Complete
Text of Report is available in PDF format (473 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Medicare
properly reimbursed Good Shepherd Medical Center (GSMC) for outpatient cardiac rehabilitation services.  We determined
that GSMC met the Medicare cardiac rehabilitation coverage requirements for direct physician supervision and incident
to services.  Our claims review of 30 of the 93 Medicare beneficiaries who received outpatient cardiac rehabilitation
services during CY 2001, revealed that GSMC claimed and received Medicare reimbursement for 12 beneficiaries services,
amounting to $3,737, which may not have met Medicare coverage requirements or which were otherwise unallowable.  We
attributed these errors to weaknesses in GSMCs internal controls and oversight procedures.